   Oversight Review         February 28, 2011


      Report on Quality Control Review of the
PricewaterhouseCoopers, LLP and Defense Contract
 Audit Agency FY 2008 Single Audit of the Charles
       Stark Draper Laboratory, Incorporated

            Report No. D-2011-6-004
  Additional Information and Copies
  To obtain additional copies of the final report, visit the Web site of the Department
  of Defense Inspector General at www.dodig.mil/audit/reports or contact the Office
  of the Assistant Inspector General for Audit Policy and Oversight at
  (703) 604-8760 or fax (703) 604-8982.

  Suggestions for Future Reviews
  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight by phone (703) 604-8760
  (DSN 664-8760), by fax (703) 604-8982, or by mail:


                       Office of the Assistant Inspector General
                            for Audit Policy and Oversight
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 833)
                              Arlington, VA 22202-4704




Acronyms
AICPA        American Institute of Certified Public Accountants
DCAA         Defense Contract Audit Agency
DCMA         Defense Contract Management Agency
                                                INSPECTOR GENERAL
                                               DEPARTMENT OF DEFENSE
                                                 400 ARMY NAVY DRIVE
                                            ARLINGTON , VIRGINIA 22202-4704


                                                                                                             FEB 28 2011

Director
Defense Contract Audit Agency

Branch Manager
Boston Branch Office
Defense Contract Audit Agency

Audit Partner
PricewaterhouseCoopers, LLP

Board of Directors
The Charles Stark Draper Laboratory, Incorporated

Vice President and Treasurer
The Charles Stark Draper Laboratory, Incorporated

SUBJECT: Report on Quality Control Review of the PricewaterhouseCoopers, LLP and
         Defense Contract Audit Agency FY 2008 Single Audit of the Charles Stark
         Draper Laboratory, Incorporated (Report No. D-2011-6-004)

       We are providing this report for your information and use. We considered
management comments on a draft of this report when preparing the final report. As the
cognizant Federal agency for Charles Stark Draper Laboratory (the Laboratory), we
performed a review of the PricewaterhouseCoopers, LLP and the Defense Contract Audit
Agency (DCAA) single audit and supporting work papers for the audit period
July 1,2007, through June 27, 2008. The purpose of our review was to determine
whether the single audit was conducted in accordance with auditing standards I and the
auditing and reporting requirements of the Office of Management and Budget Circular
A-l33, "Audits of States, Local Governments, and Non-Profit Organizations," (Circular
A-133). Appendix A contains additional background, scope, and methodology for the
review.




I Auditing standard s include both Government Auditing Standards and the American Institu te orCcrtified Public Accountant s'
audit standard s.
The PricewaterhouseCoopers office in Boston, Massachusetts performed the audit of the
financial statements. PricewaterhouseCoopers and the DCAA Boston Branch Office in
Boston, Massachusetts performed a coordinated audit of the research and development
program cluster. Appendix B presents the research and development compliance
requirements and the division of audit responsibility between PricewaterhouseCoopers
and DCAA for the audit period ended June 27, 2008.

Background. Charles Stark Draper Laboratory is a non-profit scientific research
corporation located in Cambridge, Massachusetts. The laboratory engages in scientific
research, development of prototype operational systems, and provides technical support
to government programs.

The Laboratory expended $428.9 million in Federal awards for the fiscal year ended
June 27, 2008, under one federal program, the research and development cluster. Of the
$428.9 million, $362 million was expended for Department of Defense programs.

Review Results. The Defense Contract Audit Agency did not comply with Circular
A-133 reporting requirements. As a result, DCAA must revise the FY 2008 Circular
A-133 report to include a finding to provide information on circumstances surrounding
the qualification of the compliance opinion. We also identified deficiencies in the review
and documentation of equipment and real property requirements, performance of fraud
risk assessment procedures, and audit documentation that need to be corrected in future
audits. In addition, we identified DCAA’s failure to follow its policy for reporting
noncompliance with cost accounting standards that should be resolved by the DCAA
Branch Office. We also identified areas where additional audit guidance is needed to
ensure compliance with auditing standards (Finding A).

The PricewaterhouseCoopers audit of the financial statements and the research and
development program cluster generally met auditing standards and Circular A-133
requirements. However, we identified a deficiency in the review of special tests and
provisions and the sufficiency of audit documentation that needs to be corrected in future
audits (Finding B).

Charles Stark Draper Laboratory complied with the Circular A-133 reporting
requirements. However, the Laboratory needs to take future actions to ensure that the
single audit covers all programs in the research and development cluster as required by
Circular A-133 requirements. In addition, the Laboratory will have to re-submit the
FY 2008 Circular A-133 reporting package and data collection form to the Federal Audit
Clearinghouse upon receipt of the revised DCAA audit report (Finding C).




                                            2
Management Comments and DoD IG Response. DCAA, PricewaterHouseCoopers
and the Laboratory agreed to take the recommended actions. Management comments
were responsive and conformed to requirements; no additional comments are needed.
Management comments are included in their entirety at the end of this report.

Finding A. Performance, Documentation and Reporting of the Federal Program
Audit. DCAA did not perform and document adequate procedures for relying on the
work of the Defense Contract Management Agency (DCMA) for the review of equipment
and real property requirements and they did not plan and perform sufficient fraud risk
assessment procedures. In addition, the documentation for the testing of internal control
over compliance for allowable activities, allowable cost principles and the procurement,
suspension and debarment requirements did not fully comply with auditing standards.
Further, DCAA did not comply with the Circular A-133 reporting requirements because
they did not report a finding related to the qualified opinion on compliance. Also, they
did not follow DCAA reporting policy because they did not issue a report to the
administrative contracting officer on the Laboratory’s noncompliance with two cost
accounting standards. In addition, we identified several audit areas where the DCAA
needs to improve audit guidance through revisions to the Contract Audit Manual, the
standard A-133 audit program, or other appropriate means to ensure auditor compliance
with auditing standards and Circular A-133 requirements.

        Equipment and Real Property. DCAA did not perform sufficient procedures to
allow them to rely on the DCMA work as support for their audit conclusions on the
review of equipment and real property compliance requirements (property requirements).
The conclusions on the effectiveness of internal control over and compliance with
property requirements were primarily based on a property system analysis performed by
DCMA, a non-audit agency. As a result, the DCAA work papers did not contain
sufficient evidence to support the conclusions on compliance with property requirements
for the use, management and disposition of property acquired under federal awards.
There was no documented evidence of the performance of tests of the operating
effectiveness of key controls, assessment of the risk of non-compliance and performance
of tests of compliance based on the assessed risk as required by Circular A-133.

Circular A-133 requires that the auditor gain an understanding of internal control over
compliance, identify and test key internal controls, assess the risk of noncompliance and
determine the nature and extent of compliance testing needed to provide sufficient
evidence to support the auditor's conclusion. In addition, Circular A-133 requires that the
single audit is performed by an auditor, in accordance with government auditing
standards. Under the standards, the auditor may rely on the work of others if they take
the proper steps to ensure that the scope of the work is sufficient to meet the audit



                                             3
objectives and if they perform additional procedures, as described in the standards, to
evaluate the quality and effectiveness of the work performed

Based on our review of the work papers, we concluded that DCAA did not ensure that the
scope of the DCMA work met the Circular A-133 audit requirements. DCAA did not
coordinate with the DCMA property administrator in advance of the property system
analysis to ensure that the approach and scope of the review would meet the objectives of
the single audit. The DCAA work papers provided a general description of the DCMA
procedures and noted the analyst's conclusions; however, the documentation did not
address the key internal controls tested, an assessment of the risk of noncompliance,
identify the sampling methodology used for selecting equipment for compliance testing
or identify the equipment tested. In addition, DCAA did not perform additional
procedures on the analyst’s work or perform additional tests of controls and compliance
to evaluate the quality and effectiveness of the DCMA work performed. As a result,
there was insufficient evidence in the working papers to support the auditor's judgment to
place reliance on DCMA’s review as support for DCAA’s conclusions on the adequacy
of internal control over and compliance with property management requirements.

As part of our review on the adequacy of the DCAA audit approach for property
management requirements, we evaluated the current DCAA Contract Audit Manual
guidance on the use and evaluation of non-auditor work products in meeting the
objectives of the Circular A-133 audit. Chapter 13-703 “Coordinated Audit Approach”
provides guidance on implementing a coordinated audit approach in the Circular A-133
audit and discusses using the work of non-auditors. The guidance identifies non-auditors
as participants, and requires that all participants under this approach coordinate in
advance of performing the audit to ensure that the scope of work is sufficient to meet the
audit and review responsibilities of all participants. The guidance also states that the
auditor "must perform steps necessary" to place reliance on non-auditor work; however,
the guidance does not elaborate on the required procedures or discuss factors that would
influence the extent of procedures such as the significance of the non-auditor work to the
audit objectives and degree the work will be used to support the audit conclusions.

Because of the deficiencies noted, the DCAA auditors need additional guidance when
relying on the work of non-auditors to accomplish the objectives of the Circular A-133
audit. In addition, we will recommend that the Boston Branch Office take corrective
actions in future Circular A-133 audits when relying on the work of non-auditors to
ensure that they have sufficient evidence to support their audit conclusions.

        Fraud Risk Assessment Procedures. DCAA did not perform sufficient fraud
risk assessment procedures during the planning and performance of the audit. The
Circular A-133 audit program procedures simply require the auditor to evaluate the fraud


                                             4
risk indicators identified in the DoDIG “Handbook on Fraud Indicators for Contract
Auditors.” The working papers documented that the evaluation of fraud indicators was
limited to a review of the permanent files and “other recent audit activities” performed at
the Laboratory. Based on this review, DCAA concluded that there were no identified
fraud risks.

OMB Circular A-133 requires that the single audits be performed in accordance with
government auditing standards applicable to financial statements, which incorporate the
American Institute of Certified Public Accountants (AICPA) auditing standards. AICPA
auditing standards, AU §316, “Consideration of Fraud in a Financial Statement Audit,”
requires the auditor to plan and perform the audit to obtain reasonable assurance that
material misstatements and noncompliance, whether caused by error or fraud, are
detected. Specifically, as a means of obtaining information needed to identify fraud risk
areas, the standards require, among other procedures, inquiries of management during the
planning process to determine if they have knowledge of any fraud or suspected fraud
affecting the entity.

DCAA needs to revise the guidance on required fraud risk assessment procedures in both
the standard Circular A-133 audit program and the Contract Audit Manual to ensure that
auditors are knowledgeable of the auditing standard requirements for the consideration of
fraud in a Circular A-133 audit.

The need for revised guidance on fraud risk assessment procedures was previously
reported in our audit report D-2011-6-002, dated October 29, 2010 “Report on Quality
Control Review of the Deloitte & Touche and the Defense Contract Audit Agency
FY 2008 Single Audit of the Aerospace Corporation”. DCAA management concurred
with our recommendations for revisions and plans to take corrective actions by
January 2011. However, until the corrective actions are complete we will continue to
include the finding on risk assessment procedures and the recommendation for revisions
in our reports when appropriate.

        Federal Program Documentation. DCAA did not adequately document the
review of internal control over compliance with the activities allowed and allowable cost
principle requirements (allowable cost), and the procurement suspension and debarment
requirements (procurement). DCAA documented their understanding of internal control
over compliance for both the allowable cost and the procurement requirements, but did
not document the specific key controls they intended to test. The working papers indicate
that the auditor planned to rely, in part, on internal control testing performed in other
audit assignments; however, the working papers did not provide a clear audit trail to the
control testing performed.



                                             5
       DCAA subsequently provided additional documentation that identified the prior
audits and control testing relied on. However, although the documentation included some
current year testing of controls, many of the examples were descriptions of existing
policies and procedures rather than tests of the operating effectiveness of specific
controls. In addition, the documentation provided showed that the auditor also relied on
controls tested in FYs 2004 and 2005 as support for the FY 2008 review conclusions.
This approach is not in accordance with the AICPA auditing standards considered
applicable to the Circular A-133 audit at the time of the DCAA audit. 2 AU 318,
"Performing Audit Procedures in Response to Assessed Risks and Evaluation of Audit
Evidence Obtained," states that although it is a matter of professional judgment to rely on
audit evidence obtained in prior audits, the length of time between retesting controls
should not exceed more than two years. As a result of these deficiencies, we spent
considerable time obtaining verbal explanations and reviewing additional information in
order to make a determination on the sufficiency of the audit evidence to support the
auditor’s conclusion.

In addition, DCAA should review the A-133 audit program and the Contract Audit
Manual, Chapter 13, to ensure that the guidance conforms with the standards and
guidance in Statement on Auditing Standards 117 “Compliance Audits” issued in
December 2009 and revise its guidance as necessary. The standard was primarily
developed in response to the results of a federal study which showed that improvements
were needed in the performance of the Circular A-133 audit.

Statement on Auditing Standards 117 establishes standards and application guidance on
performing and reporting on the audit of compliance when the auditor is required to
express an opinion on compliance in accordance with auditing standards and government
audit requirements. The standard incorporates the AICPA risk assessment standards and
requires the auditor to adapt and apply the AICPA auditing standards to a compliance
audit. The standard and the associated application guidance will influence DCAA’s
approach to the review of internal control in the Circular A-133 audit (see footnote 2).

       Reporting Audit Findings in Accordance with Circular A-133 and the
Defense Contract Audit Manual Requirements. DCAA did not comply with the
Circular A-133 reporting requirements because they did not report a finding related to the
qualified opinion on compliance and they did not follow DCAA reporting policy because
they did not issue a report to the administrative contracting officer on the Laboratory’s
noncompliance with two cost accounting standards.


2
  Statement on Auditing Standards 117 issued in December 2009 and effective for audits of fiscal periods ending on or after June
15, 2010 no longer permit the auditor to rely on audit evidence obtained in prior audit as evidence of the operating effectiveness
of controls in an annual Circular A-133 audit (AU 801 pars. 20 and A24)


                                                                6
        Circular A-133 Audit Requirements. DCAA did not comply with Circular
A-133 reporting requirements because they did not report the circumstances surrounding
the qualification of the opinion on compliance for the research and development program
in the schedule of findings and questioned cost. DCAA qualified the report on
compliance with federal program requirements because they did not have access to
certain awards due to externally imposed restrictions and they were unable to satisfy
themselves on compliance with program requirements by other auditing procedures.
Circular A-133 §__.510(a)(5) requires that the auditor report as an audit finding in the
federal awards section of the schedule of findings and questioned costs the circumstances
concerning why the auditor's report on compliance is other than an unqualified opinion,
unless the circumstances are otherwise reported as an audit finding in the schedule.

        Cost Accounting Standard Noncompliance Reporting. DCAA did not
comply with the DCAA Contract Audit Manual guidance for reporting instances of
noncompliance with cost accounting standards to the administrative contracting officer
for resolution and disposition actions. The Contract Audit Manual section 8-302.7(c)
requires the auditor to issue a separate report on all significant cost accounting standard
violations. Separate reporting of noncompliant practices ensures that the administrative
contracting officer has timely and complete information to perform their responsibilities
for the administration of cost accounting standards. In addition, issuing separate
noncompliance reports support the DoD contract audit follow-up process by providing a
mechanism for tracking government actions on audit findings and recommendations.

DCAA audited the annual incurred cost audit as part of the Circular A-133 audit. The
results of the audit included questioned costs some of which resulted from noncompliant
practices with the requirements of cost accounting standards 405 “Accounting for
Unallowable Cost,” 409 “Depreciation of Tangible Assets,” and 411 “Accounting for
Acquisition Cost of Material.” The questioned costs were reported in the Circular A-133
audit report, however, except for the noncompliance with cost accounting standard 411,
the auditor did not issue separate reports on the noncompliant practices related to the
accounting for unallowable costs and the depreciation of tangible assets.

In the response to our draft report, DCAA states they re-evaluated their basis for citing
the Laboratory was in noncompliance with cost accounting standard 409. Based on their
re-evaluation, DCAA concluded that the Laboratory is in noncompliance with cost
accounting standard 406 “Cost Accounting Period.” As a result, DCAA plans to issue the
appropriate noncompliance report to the administrative contracting officer. In addition,
they will address this error in the revised FY 2008 Circular A-133 audit report.

The Contract Audit Manual section 8-302.7(a) states that “noncompliance reports should
include only cost accounting standards violations that the auditor considers significant”


                                             7
and the Manual provides four general conditions under which a noncompliance would be
considered significant and should be reported. We were unable to find any
documentation in the audit file to explain the auditor’s rationale for not issuing separate
noncompliance reports as required.

We discussed the failure to issue reports with the DCAA, and we were advised that a
decision was made not to issue the reports until after the administrative contracting
officer made a final determination on the allowability of the questioned costs identified in
the FY 2008 Circular A-133 report. However, the consideration of noncompliant
practices goes beyond resolving the impact of questioned costs on audited accounting
period. Noncompliant practices need to be corrected for the potential impact on future
contract costs as well. Therefore, DCAA should have issued the noncompliance reports
to ensure that the contracting officer’s determination and resolution actions address any
required changes to accounting practices as well as the resolution of questioned cost.

        Contract Audit Manual Guidance on Reporting Internal Control
Deficiencies. The DCAA Contract Audit Manual Chapter 13, “Audits at Educational
Institutions, Nonprofit Organizations, and Federally Funded Research and Development
Centers,” section 700, “OMB Circular A-133 Audits and Reports,” should be updated to
reflect the current terminology on communicating internal control matters in accordance
with OMB Circular A-133 reporting requirements. Specifically, effective with the
June 26, 2007 Federal Register changes to OMB Circular A-133, the term “reportable
condition” has been replaced with “significant deficiency” to conform with current
auditing standards.

The need to update the Contract Audit Manual terminology on communicating matters
related to internal control was previously reported in our audit report D-2011-6-002,
dated October 29, 2010 “Report on Quality Control Review of the Deloitte & Touche and
the Defense Contract Audit Agency FY 2008 Single Audit of the Aerospace
Corporation”. DCAA management concurred with our comments and agreed to take
corrective actions. However, until the corrective actions are complete we will continue to
include the finding and the recommendation for revisions in our reports when
appropriate.

Conclusion. The deficiencies disclosed by our review indicate that DCAA management
needs to implement more effective quality control procedures for the Circular A-133
audits and provide additional training in auditing standards and OMB Circular A-133
requirements to auditors performing OMB Circular A-133 audits.




                                             8
Finding B. PricewaterhouseCoopers’ Performance and Documentation of the
Federal Program Audit. The procedures performed by the PricewaterhouseCoopers
auditors were not sufficient to identify the existence of special tests and provisions in the
Laboratory’s contracts. As a result, they did not perform the required review and testing
of internal control over and compliance with provisions for key personnel. In addition,
the documentation of the federal program audit needs to be improved in future single
audits to provide a clear audit trail to the specific procedures relied on to support the
conclusions on compliance with Federal requirements.

       Special Tests and Provisions Compliance Testing. The auditors reviewed a
sample of 10 contracts and concluded that there were no special tests and provisions
requirements for those awards. During our site visit, we re-tested five of the ten contracts
to assess the adequacy of the auditor’s conclusions and determined that three of the five
contracts contained key personnel requirements. We discussed our findings with the
auditor and were advised that the contracts reviewed contained the “key personnel”
clause but key personnel were not identified so the auditor concluded that the clause was
not exercised.

Because there was a discrepancy between the results of our review and the auditor’s
review, we contacted the Laboratory’s contracting officer. Based on our discussions with
the contracting officer’s representative, we determined that the auditor’s conclusions
were based on a review of the general provisions in the basic ordering agreements rather
than on the specific requirements included in individual contract delivery orders issued
under the agreement. As described in the Federal Acquisition Regulation section
16.703(a), a basic ordering agreement is not a contract, rather it is a written
understanding between the parties that contains terms and clauses applicable to future
contracts (orders) issued under the agreement; as a result, specific key personnel
requirements are identified in the individual contracts orders. Future procedures to
identify the existence of special terms and provisions should include reviewing individual
contract orders issued under basic ordering agreements. The contracting officer also
advised us that the auditors can contact the procuring contracting officer for key
personnel information.

       Workpaper Documentation. The documentation of the audit procedures
performed for the Laboratory’s oversight of for-profit and vendor organizations and the
internal control review and the compliance audit of special tests and provisions, cash
management, and reporting requirements did not always provide sufficient detail for the
reviewer to evaluate the adequacy of the audit procedures performed and the sufficiency
of audit evidence. As a result, the auditors were required to provide additional verbal
explanations and documentation from the financial statement audit to support the Federal
audit.


                                              9
Government auditing standards require that sufficient detail be included in the audit
documentation to provide an experienced auditor who has no previous connection with
the audit to ascertain from the documentation that the evidence supports the auditor’s
significant judgments and conclusions. Audit documentation should be appropriately
detailed to provide a clear understanding of its purpose and source, and should be
appropriately organized to provide a clear link to the findings, conclusions, and
recommendations.

Finding C. Charles Stark Draper Laboratory Responsibility for Obtaining Audit
Coverage in Accordance with Circular A-133 Requirements. The Laboratory did
not ensure that the FY 2008 audit covered the entire research and development program
cluster. As a result, $18 million of direct cost incurred on federal awards was not
included in the Circular A-133 audit. The Laboratory's research and development cluster
includes contracts that have externally imposed restrictions on auditor access to awards.
Because of these restrictions, the auditors were unable to gain access to certain awards or
perform other audit procedures, to assess the Laboratory's compliance with applicable
federal requirements. Without the appropriate audit coverage awarding agencies cannot
rely on the Circular A-133 audit as intended by the Single Audit Act to maintain
accountability over spending or use the audit results to manage and monitor the entity’s
use of federal funds.

Circular A-133 assigns the auditee (the Laboratory) the responsibility for procuring
auditors to perform the required annual audit of the financial statements and major
federal programs. This includes ensuring that the auditors are aware of the objectives and
scope of the audit and have the qualifications and technical abilities to perform an audit
of the entire research and development program in accordance with Circular A-133
requirements.

Recommendations and Management Comments
   1. We recommend that the Director, Defense Contract Audit Agency:

          a. Revise the Defense Contract Audit Agency Circular A-133 standard
             audit program to include the procedures required by the American
             Institute of Certified Public Accountants Statements on Auditing
             Standards§316, “Consideration of Fraud in a Financial Statement
             Audit.”

          b. Revise the DCAA Contract Audit Manual Chapter 13,”Audits at
             Educational Institutions, Nonprofit Organizations, and Federally

                                            10
        Funded Research and Development Centers (FFRDCs),” to include
        guidance on performing fraud risk assessment procedures and
        reporting in the Circular A-133 audit report.

     c. Revise the Contract Audit Manual Chapter 13-703 “Coordinated Audit
        Approach” to provide additional guidance for relying on the work of
        non-auditors.

     d. Review the A-133 audit program and the Contract Audit Manual,
        Chapter 13, to ensure the guidance conforms with the American
        Institute of Certified Public Accountants’ Statements on Auditing
        Standards 117 “Compliance Audits.”

  DCAA Comments. The Director, DCAA agreed to take the recommended
  actions. Management comments are included in their entirety at the end of this
  report.

2. We recommend that the Branch Manager, Boston Branch Office, Defense
   Contract Audit Agency:

     a. Revise the FY 2008 Circular A-133 report single audit report, to
        include the circumstances surrounding the compliance opinion
        qualification in the schedule of findings and questioned costs.

     b. Forward the report to the Laboratory for submission to the Federal
        Audit Clearinghouse.

     c. Issue Cost Accounting Standards CAS 405 and 406 noncompliance
        reports to the Administrative Contracting Officer for appropriate
        actions.

     d. Strengthen existing or implement additional quality control procedures
        for Offices of Management and Budget Circular A-133 audits to ensure
        that future audits comply with auditing standards and Circular A-133
        requirements for the planning, performance and documentation of the
        audit.

     e. Provide staff performing Circular A-133 audits formal training in the
        application and implementation of auditing standards in meeting
        Circular A-133 audit requirements.



                                      11
   DCAA Comments. The Branch Manager, Boston Branch Office, DCAA agreed
   to take the recommended actions. Management comments are included in their
   entirety at the end of this report.

3. We recommend that the Audit Partner, PricewaterhouseCoopers, LLP take
   the following actions in future single audits:

      a. Perform as necessary, appropriate procedures to identify the existence
         of special tests and provisions in the Laboratory’s’ contracts.

      b. Improve work paper documentation for the internal control review
         and compliance audit of the cash management, reporting, special tests
         and provisions and the Laboratory’s oversight of for-profit and vendor
         organizations to ensure compliance with government auditing
         standards and Circular A-133 requirements.

   PwC Comments. The Audit Partner, PwC, agreed to take the recommended
   actions. Management comments are included in their entirety at the end of this
   report.

4. We recommend that the Vice President and Treasurer, Charles Stark Draper
   Laboratory:

      a. Take future actions to ensure that the single audits cover all programs
         in the research and development cluster as required under OMB
         Circular A-133.

      b. Upon receipt of the revised report from DCAA, file the revised
         FY 2008 Circular A-133 reporting package and Data Collection Form
         with the Federal Audit Clearinghouse and notify the DoD Office of
         Inspector General upon completion.

   The Laboratory Comments. The Vice President for Finance and Administration
   and Treasurer, Charles Stark Draper Laboratory, Incorporated agreed to take the
   recommended actions. Management comments are included in their entirety at the
   end of this report.




                                       12
      We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Ms. Janet Stern at (703) 604-8750
(DSN 664-8750).




                                           Randolph R. Stone
                                        Deputy Inspector General
                                         for Policy and Oversight




                                           13
Appendix A. Quality Control Review Process
Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the
financial management of State and Local Governments, and nonprofit organizations by
establishing a uniform set of auditing and reporting requirements for all Federal award
recipients required to obtain a single audit. OMB Circular A-133 establishes policies that
guide the implementation of the Single Audit Act, and provides an administrative
foundation for uniform audit requirements of non-Federal entities administering Federal
awards. Entities that expend $500,000 or more in a year are subject to the Single Audit
Act and audit requirements in OMB Circular A-133. Therefore, they must have an
annual single or program-specific audit performed under government auditing standards
and submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the PricewaterhouseCoopers, LLP and the Defense Contract Audit Agency,
Boston Branch Office, FY 2008 single audit of The Charles Stark Draper Laboratory,
Incorporated and the reporting package that was submitted to the Federal Audit
Clearinghouse on March 31, 2009, using the 1999 edition of the “Uniform Quality
Control Guide for the A-133 Audits” (the Guide). The Guide applies to any single audit
that is subject to the requirements of OMB Circular A-133 and is the approved
President’s Council on Integrity and Efficiency 3checklist used for performing quality
control reviews. We performed the review from November 2009 through
December 2010. The review focused on the following qualitative aspects of the single
audit:
                 •      Qualification of Auditors,
                 •      Independence,
                 •      Due Professional Care,
                 •      Planning and Supervision,
                 •      Audit Follow-up,
                 •      Internal Control and Compliance testing,
                 •      Schedule of Expenditures of Federal Awards, and
                 •      Data Collection Form.

3
  The President's Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency combined into the
Council of the Inspectors General on Integrity and Efficiency in accordance with the Inspector General Reform Act of 2008.


                                                              14
Prior Quality Control Reviews
Since October 1, 2006, we performed one quality control review of DCAA and two of
PricewaterhouseCoopers OMB Circular A-133 audits. All audits contained deficiencies
resulting in findings and recommendations on audit planning/coordination, performance,
reporting and documentation. Unrestricted IG DoD reports can be accessed at
http://www.dodig.mil/audit/reports.

IG DoD Reports

IG DoD Report No.D-2011-6-002, “Report on Quality Control Review of the Deloitte &
Touche and the Defense Contract Audit Agency FY 2008 Single Audit of the Aerospace
Corporation, ” October 29, 2010

IG DoD Report No.D-2008-6-003,“Report on Quality Control Review of FY 2006 Single
Audit of Logistics Management Institute,” March 19, 2008

IG DoD Report No. D-2008-6-002, “Quality Control Review of FY 2006 Single Audit of
Syracuse Research Corporation,” January 25, 2008




                                          15
 Appendix B. Compliance Requirements*

                                                             Applicable
 OMB Circular A-133 Compliance Requirements                                     Not Applicable/
                                                          DCAA        PwC        Not Material

Activities Allowed/Unallowed                                X

Allowable Costs/Cost Principles                             X

Cash Management                                                        X

Davis-Bacon Act                                                                         X

Eligibility                                                                             X

Equipment and Real Property Management                      X

Matching, Level of Effort, Earmarking                                  X

Period of Availability of Federal Funds                     X

Procurement, Suspension, and Debarment                      X

Program Income                                                                          X

Real Property Acquisition and Relocation Assistance                                     X

Reporting                                                              X

Subrecipient Monitoring                                                                 X

Special Tests and Provisions                                           X

 *This chart reflects the auditor’s determination on compliance requirement applicability and
 materiality.




                                                16
Defense Contract Audit Agency Comments




                    17
18
19
20
Defense Contract Audit Agency, Boston Branch
Office, Northeastern Region Comments




                     21
22
23
PricewaterhouseCoopers, LLP Comments




                    24
25
26
The Charles Stark Draper Laboratory
Comments




                     27
